The State ex rel. Elliot G. Feltner, Relator v.
Cuyahoga County, Ohio Board of Revision, et al.
SERVICE LIST

CHRISTINA M. MARTIN
Counsel of Record
Pacific Legal Foundation
4440 PGA Blvd., Ste. 307
Palm Beach Gardens, FL 33410
Telephone: (561) 691-5000
Email: cmartin@pacificlegal.org
Counsel for Petitioner
Michael C. O'Malley
Prosecuting Attorney of Cuyahoga County, Ohio
Charles E. Hannan*
Adam Jutte*
*Assistant Prosecuting Attorneys
The Justice Center
Courts Tower
1200 Ontario Street, 8th Floor
Cleveland, Ohio 44113
(216) 443-7758
momalley@prosecutor.cuyahogacounty.us
channan@prosecutor.cuyahogacounty.us
ajutte@prosecutor.cuyahogacounty.us
For Respondents Cuyahoga County Ohio Board of Revision, Cuyahoga County, Ohio, Armond
Budish, Dennis G. Kennedy, Michael Gallagher, and W. Christopher Murray II
Stephen W. Funk* (0058506)
*Counsel of Record
John W. Breig, Jr. (0096767)
ROETZEL & ANDRESS, LPA
222 S. Main Street, Suite 400
Akron, Ohio 44308
(330) 376-2700
sfunk@ralaw.com; jbreig@ralaw.com
Counsel for Respondent Cuyahoga County Land Reutilization Corporation
David Yost
Ohio Attorney General Benjamin M. Flowers
Ohio Solicitor General
30 E. Broad Street, 14th floor
Columbus, OH 43215
(614) 466-4320
Constitution.Mail@OhioAttorneyGeneral.gov; bflowers@ohioattorneygeneral.gov
Notice required to state attorney general per rule 29.4(c))

